Corporation                                                                      Office of Inspector General
for Public
Broadcasting


Date:                  September 12,2014

To:                    Jackie J. Livesay, Vice President, Compliance

cc:                    Steve Altman, Senior Vice President, Business Affairs
                       Ted Krichels, Senior Vice President, System
                                                            system Development &
                                                                               & Media Strategy
                                                                                       strategy


From:                  Mary Mitchelson, Inspector General

Subject:               Other Matters—Audit of Public Radio Satellite System Upgrade Grant Awarded
                       to National Public Radio, Inc., Report No. L-APR1305-1407

In planning and performing our audit of the Public Radio Satellite System (PRSS) grant awarded
to National Public Radio, Inc., (NPR), Audit Report No. APR1305-1402, we noted the
following matter that we considered significant enough to merit Corporation for Public
Broadcasting's (CPB) action when awarding future capital equipment grants.
Specifically, we found there was no documentation available to support awarding $5
million to eight contractors noncompetitively. While this practice conformed to CPB's
grant agreement terms, it did not conform to either NPR's or CPB's own procurement
policies. We recommend that future grants for radio and television interconnection
system upgrades require all procurement decisions be documented to provide
transparency and demonstrate the prudent use of CPB funds.

          Procurement Requirements


During our audit we found that NPR complied with the terms of the grant agreement for the
PRSS Upgrade. However, while complying with the grant terms, NPR awarded eight
noncompetitive contracts totaling $5 million dollars without documenting why the sole source
contracts were necessary and how it determined the contracts prices were reasonable. Such
determinations were not required by the CPB agreement but were required under NPR's and
CPB's existing policies for sole source procurements.

Various U.S. Government Accountability Office (GAO) studies have concluded that competition
is a cornerstone of an acquisition system and a critical tool for achieving the best possible return
on public investments. The benefits of competition in acquiring goods and services are well
established. GAO also reported that competitive contracts can help save taxpayer money,
improve contractor performance, curb fraud, and promote accountability for results.

401 Ninth Street, NW
Washington, DC 20004-2129
202.879,9669 202.879.9699 fax

www.cpb.org/oig
